                                            UNITED STATES DEPARTMENT OF COMMERCE
                                            The Inspector General
                                            Washington, D.C. 20230
   JAN 1 2 2009




MEMORANDUM FOR:           Mary Glackin
                          Deputy Under Secretary
                           for Oceans and Atmosphere

                          ~f}. <L            ­
FROM:	                    ToddJ.   Zin~
SUBJECT:	                 Facility Replacement Alternatives for
                          NOAA's Southwest Fisheries Science Center

We evaluated NOAA's March 2008 business case for replacing the facilities
that currently house the Southwest Fisheries Science Center in La Jolla,
California, in which the agency considered three options for addressing safety
concerns. NOAA prepared this business case as Exhibit 300, "Capital Asset
Plan and Business Case Summary," for OMB.

All three alternatives propose immediately moving employees from two of the
four buildings (buildings B and C) into leased space and demolishing these
two for safety reasons. Beyond this point, the scenarios differ.

 •	 Alternative 1, NOAA's preferred choice, proposes constructing a 120,000
    square-foot replacement facility on land offered by the University of
    California San Diego under a 65-year rent-free lease. At the end of the
    lease, the land would revert back to the university. NOAA will have the
    option of transferring to the university-at no cost-title to the building
    and any other improvements it made, or it may eliminate the
    improvements at its own expense.
 •	 Alternative 2 involves a combination of renovation and phased leasing:
    buildings A and D would be rehabilitated over a 5-year period, during
    which time NOAA would lease temporary space to house employees. Once
    renovated, A and D would be reoccupied until the end of their useful life,
    projected to be year 2029, at which time the agency would lease new
    space. Buildings Band C would be vacated immediately and employees
    permanently moved into newly leased space.
 •	 Alternative 3 is a full-lease option. NOAA would vacate the entire facility
    now and permanently lease buildings to accommodate all employees.
As detailed below, we found significant problems with a number of NOAA's
assumptions and calculations used in the business case, many of which have
been in flux during the course of our review.

According to NOAA, alternative 1, construction of a new facility on land
belonging to the University of California, is the least expensive. The
March 28, 2008, estimate presented savings of more than $76 million over
alternative 2 and $126 million over alternative 3. Alternative 1 is consistent
with direction included in the FY 2006 appropriations act, which authorized
the Secretary of Commerce to enter into a lease with the University for land
at the San Diego Campus in La Jolla for a term not less than 55 years. It is
also consistent with NOAA's nonfinancial reason for preferring alternative 1
as described in the business case-collocation with the University's Scripps
Institution of Oceanography, with which it has collaborated for over 50 years.
Our review of the estimate shows alternative 2 as the more cost-effective,
offering savings of $1.61 million and $26.46 million over alternative 1 and 3
respectively.

We reported the results of our review to NOAA in August 2008, and
recommended several adjustments to NOAA's estimating methodology
(table 1).

Table 1. Primary Problems Identified in OIG Rev;ew of March Estimate


    1. Excessive spikes in lease costs. Alternatives 2 and 3 showed dramatic
      increases in lease rates every sixth year. For example, lease costs for
      alternative 2; lease 1 were $2.38 million in 2008 and increased by 2 percent
      annually through year 2012. But in year 2013, they jumped 17 percent,
      stabilized at 2 percent per year for the next 5 years, and jumped 29 percent
      in 2018. By year 30 the lease increased by 92 percent from the previous year.

    2. Different base years. Calculations of inflation and net present value for
      alternative 3, lease 1, began in 2010, while calculations for alternatives 1 and
      2 began in 2009. Although the time frame and duration of the lease periods
      differ, the base year should be consistent to ensure that dollar values remain
      comparable.

    3. Omission of GSA management fee. NOAA had not factored into the original
      assumptions a 7 percent fee charged by the General Services Administration
      for managing leased properties.

    4./nconsistent moving and relocation costs. NOAA's method for calculating
      moving and relocation costs in alternatives 2 and 3 was not consistent with
      the method used in alternative 1. Alternatives 2 and 3 assume moves every
      tenth year at a relocation cost of $100 per rentable square foot based on
      actual costs incurred for a similar move of NOAA employees and facilities in
      Hawaii in 2006. In contrast, the $7.46 million estimate for these costs in
      alternative 1 was based on construction estimates for the one-time relocation
      of operations to a 120,000 gross square foot facility, including furniture,
      fixtures, and moving costs.




                                                     2

On September 15, NOAA issued a memo agreeing with most of our
recommended changes and provided a revised analysis, in which the
estimated savings for alternative 1 dropped to $11 million over alternative 2
and $38 million over option 3 (table 2). However, the new estimate introduced
new assumptions and other modifications.

Table 2. Comparison of Varying Cost Analyses ($ in millions)

                                          Alternative      Alternative       Alternative
               Analysis
                                                   1             2                3

NOAA's March 2008 analysis                   $117.07          $193.46          $243.11

                      Cost Benefit                            (76.39)          (126.04)
OIG review of NOAA's March 2008
                                                 113.80        112.19           138.65
Analysis
                          Cost Benefit           (1.61)                         (26.46)

NOAA's September 2008 analysis                   115~88        127.01           153.93

                          Cost Benefit       ,                (11.13)           (38.05)


Addressing the center's safety status is a longstanding issue: NOAA's current
proposals are the most recent of several iterations considered over more than
a decade, and prompted by a 1997 report issued by my office that discussed
possible relocation options.! NOAA commissioned a study with SRI
International in response to a 2004 congressional request for follow-up on the
relocation,2 which referenced our 1997 report and subsequent questions posed
by OMB.3 The SRI study looked primarily at NOAA's earlier proposals­
specifically focusing on options for collocation with existing facilities. SRI
reviewed programmatic reasons, cost-benefit assumptions, space constraints,
and costs associated with moving staff from the center to other NOAA sites in
California, Washington, and Hawaii. SRI told us that it did consider the

I
  u.s. Department of Commerce Office of Inspector General, November 1997. NMFS Laboratory
Structure Should Be Streamlined, STL-8982-8. Washington, DC: Commerce DIG.
2 The FY 2004 Omnibus Appropriations Conference Report stated that Senate and House appropriators
"remain concerned regarding the seismic and erosion conditions near the Southwest Fisheries Science
Center (SWSC). In 1997, the Department of Commerce Office of the Inspector General issued a report,
which highlighted options for relocation of the SWSC. The [Appropriations) Committee directs NOAA to
issue a follow-on report on the best location for SWSC facilities by no later than June 30, 2004."
http://www.calinst.orgfpubs/omn04c.htm# 1 3
3   During budget formulation discussions.




                                                       3
"reasonableness of the assumptions" NOAA used to prepare the March 2008
business case. But it did not validate any of the numbers in NOAA's proposed
building and leasing costs for staying in San Diego.

Developing accurate cost estimates for capital improvement projects is a
difficult and complex undertaking, and these federal programs are
particularly susceptible to waste and mismanagement if not carefully
planned and monitored. Given the problems we have identified with NOAA's
current cost projections and the significant fluctuations between NOAA's first
and second estimate, we recommend that NOAA's analysis and cost estimates
be independently validated before the agency proceeds with a course of
action. This should help ensure that NOAA makes the best choice for
replacing the La Jolla center. !fyou concur and obtain an independent
review, we request a copy of the reviewer's report when it is complete.

!fyou wish to discuss this matter further, please do not hesitate to contact
me at (202) 482-4661, or Judith Gordon, assistant inspector general for audit
and evaluation, at (202) 482-2754.

cc: William F. Broglie, NOAA Chief Administrative Officer




                                      4

